     Department of Homeland Security





               FEMA Public Assistance
           Grant Funds Awarded to City of
       Miami Beach, Florida – Hurricane Katrina




DA-12-05                                          January 2012

                                                                          Office ofInspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                                                          Homeland
                                                                          Security
                                        January 6, 2012


MEMORANDUM FOR:



FROM:                                           ea
                                    Actin Assistant Inspector General
                                    Office of Emergency Management Oversight

SUBJECT:                             FEMA Public Assistance Grant Funds Awarded to
                                     City ofMiami Beach, Florida - Hurricane Katrina
                                     FEMA Disaster Number 1602;.DR-FL
                                     Audit Report Number DA-12-05

We audited public assistance funds awarded to the City of Miami Beach, Florida (City) (FIPS
Code 086-45025-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to federal
regulations and FEMA guidelines.

The City received a public assistance award of $1.7 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Katrina, which occurred in August 2005. The award provided 100% FEMA funding for three
large projects and eight small projects. l

We reviewed costs totaling $1.5 million claimed under three large projects (see Exhibit,
Schedule of Audited Projects). The audit covered the period from August 24,2005, to February
1,2011, during which the City received $1.2 million ofFEMA funds under the projects reviewed.
At the time ofthe audit, work under the projects was complete, but the City had not submitted a
final claim on project expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, andaccorqing to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our



1 Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
audit objective. We conducted this audit according to the statues, regulations, and FEMA
policies in effect at the time of the disaster.

We interviewed FEMA, State, and City officials; reviewed judgmentally selected samples of
claimed costs (generally based on dollar value); reviewed the City’s procurement policies and
procedures; reviewed applicable federal regulations and FEMA guidelines; and performed other
procedures considered necessary to accomplish our audit objective. We did not assess the
adequacy of the City’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of the City’s
method of accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                     RESULTS OF AUDIT

The City did not account for costs on a project-by-project basis as required. We also identified
$39,887 of unrelated and unsupported charges.

Finding A: Project Accounting

The City did not account for large projects on a project-by-project basis. According to Code of
Federal Regulations (CFR) Title 44, Part 13.20(a)(2), fiscal control and accounting procedures of
the State and its subgrantees must be sufficient to permit the tracing of funds to a level of
expenditures adequate to establish that such funds have not been used in violation of the
restrictions and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that
large project expenditures be accounted for on a project-by-project basis.

The City commingled disaster-related receipt and expenditure transactions with non-disaster
transactions in its general account, with no separate accounting establishing project balances,
receipts, or expenditures. As a result, total costs claimed under individual projects could not be
readily identified, thus increasing the risk of expenses being duplicated among projects.

Finding B: Non-Disaster-Related Charges

The City’s claim under debris removal Project 1002 included $2,096 of landfill tipping fees for
disposing of domestic garbage rather than disaster-related debris. However, federal regulations
at 44 CFR 206.223 require, among other things, an item of work to be the result of a major
disaster event to be eligible for FEMA financial assistance. Therefore, we question the $2,096 of
ineligible charges.

Finding C: Supporting Documentation

The City’s claim under Project 999 contained $37,791 of contract charges for travel-related
expenditures that were not supported by source documentation, such as hotel bills, car rental
invoices, and mileage logs. However, according to 2 CFR 225, Cost Principles for State, Local,
and Indian Tribal Governments, Appendix A, Section C.1.j, a cost must be adequately



                                                 2

documented to be allowable under federal awards. 2 Therefore, we question the $37,791 of
unsupported costs.


                                            RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Instruct the City, for future declarations, to account for FEMA
           funding on a project-by-project basis as required by federal regulations (finding A).

           Recommendation #2: Disallow $2,096 of non-disaster-related charges (finding B).

           Recommendation #3: Disallow $37,791 of unsupported charges (finding C).


                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided written summaries of our findings and recommendations in advance to these officials
and discussed them at an exit conference held on September 13, 2011. City officials agreed with
finding A but disagreed with findings B and C. They said they are developing a response to
FEMA, and have requested source documentation from the contractor for costs questioned under
findings B and C.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, William Johnson, and
Oscar Andino.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc:	       Administrator, FEMA
           Audit Liaison, FEMA Region IV
           Audit Liaison, FEMA
2
    OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR 225, on August 31, 2005.


                                                           3

Audit Liaison, DHS




                     4
                                                                 EXHIBIT
                Schedule of Audited Projects

             August 24, 2005, to February 1, 2011

                City of Miami Beach, Florida

             FEMA Disaster Number 1602-DR-FL


Project    Project     Unrelated Unsupported Total Costs
Number    Funding      Charges    Charges    Questioned    Finding
  942     $ 185,063       $     0   $      0  $       0
  999        206,446            0     37,791    37,791       C
 1002      1,083,583        2,096          0      2,096      B
 Total    $1,475,092      $2,096    $37,791    $39,887




                              5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
